No. 19-409

 

 

IN THE
Supreme Court of the United States

CITY OF CLEVELAND, KAREN LAMENDOLA,
ADMINISTRATOR FOR ESTATE OF FRANK STOIKER, AND
J. REID YODER, ADMINISTRATOR FOR ESTATE OF
EUGENE TERPAY, JAMES T. FARMER, AND JOHN
STAIMPEL,

Petitioners,
v.

RIcKy JACKSON, KWAME AJAMU, FKA RONNIE
BRIDGEMAN, AND WILEY EDWARD BRIDGEMAN,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,576 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 5, 2019.

L

Colin Casey Hoga:
Wilson-Epes Printing Co., Inc.

   
